TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                              Office of Inspections and Evaluations




        Follow-up Review of Controls Over Religious Compensatory Time



                                              June 23, 2011

                             Reference Number: 2011-IE-R004




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3d=Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                    DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               June 23, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER, OPERATIONS SUPPORT

 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Follow-up Review of Controls Over
                             Religious Compensatory Time (# IE-10-016)

 This report presents the results of our inspection to determine whether corrective actions
 implemented by the Internal Revenue Service (IRS), in response to our February 2009 inspection
 report,1 significantly reduced the potential for IRS employees to accumulate excessive religious
 compensatory time (RCT) balances.

 Synopsis
 We found that, between February 2008 and June 2010, the overall number of employees with
 RCT balances decreased by approximately 33 percent, and the number of employees with
 excessive RCT balances has decreased by nearly 37 percent. We also found that only about
 two percent of IRS employees have RCT balances, and the vast majority of these employees
 (about 81 percent) had relatively low balances. While the issue of excessive balances is not
 widespread within the IRS, the accumulation of excessive RCT balances increases the risk that
 employees may use the time for unintended purposes. This includes earning RCT and routinely
 not using it with the intention of receiving a lump sum payment for the balance upon separation
 or retirement; using RCT in place of annual or sick leave; or allowing employees to earn RCT in
 lieu of overtime, compensatory time or credit hours.
 Additionally, we determined that a few employees earned hundreds of overtime or credit hours
 without first repaying the advanced RCT balances they carried. This is due in part to the IRS’s
 decision not to include this requirement in its revised agreement with the National Treasury
 Employees Union (NTEU). Some managers we interviewed explained that they approve any

 1
  Treasury Inspector General for Tax Administration Report Number 2009-IE-R002, To Prevent the Possible
 Widespread Abuse of Religious Compensatory Time, Additional Controls are Needed (Reference
 Number 2009-IE-R002, dated February 27, 2009).
                           Follow-up Review of Controls Over
                             Religious Compensatory Time




requests for RCT regardless of whether the event appeared to be a religious observance in order
to avoid potential grievances and the appearance of any prejudice against an employee’s faith.
While the IRS has partially implemented corrective actions related to recommendations
contained in our February 2009 inspection report, we believe that additional actions would
further strengthen the controls to deter and prevent abuse.

Recommendations
We recommend that the IRS Human Capital Officer modify procedures to (1) require all
employees (bargaining unit and non-bargaining unit) repay advanced RCT before approving
voluntary requests to earn overtime, compensatory time, or credit hours and (2) develop a
standardized process and mechanism for requesting, authorizing, and documenting the use of
RCT. We further recommend that the IRS Human Capital Officer require that all managers and
timekeepers receive training on the regulations and IRS policies concerning requesting and using
RCT.

Response
IRS management provided an adequate, detailed response to our memorandum. The IRS agreed
with two of our recommendations affecting bargaining unit employees. In order to implement
those recommendations, the IRS and NTEU must renegotiate the provisions of the National
Agreement related to use of RCT. Management believes proposing changes related to the use of
RCT is not one of the major provisions that should be renegotiated during reopener negotiations.2
Therefore, the IRS agreed to assess the status of RCT issues and consider proposing changes
related to RCT in the next agreement.3 With regard to the recommendation related to RCT
training, the IRS has agreed to consider mandatory RCT training for managers only, and plans to
keep both managers and timekeepers aware of their responsibility to adhere to RCT requirements
through the use of web communications. Management’s complete response to the memorandum
is included as Appendix V.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




2
  During reopener negotiations in October 2011, the IRS and NTEU can submit proposals to introduce two new
articles and amend five existing articles.
3
  During negotiations related to the new agreement, which should start in October 2013, the IRS and NTEU can
propose changes to any article in the present agreement.
                                                                                                               2
                                               Follow-up Review of Controls Over
                                                 Religious Compensatory Time




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Fewer Employees Have Excessive Religious Compensatory Time
          Balances but the Risk for Abuse is Still Present ........................................... Page 3
          Potential and Actual Misuse of Religious Compensatory Time
          Support the Case for Additional Controls..................................................... Page 7
                    Recommendation 1:........................................................ Page 10

                    Recommendation 2:........................................................ Page 12

                    Recommendation 3:........................................................ Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Locations of Interviews of Selected IRS Managers ............. Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
            Follow-up Review of Controls Over
              Religious Compensatory Time




              Abbreviations

AWSS    Agency-Wide Shared Services
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
NTEU    National Treasury Employees Union
RCT     Religious Compensatory Time
TIGTA   Treasury Inspector General for Tax Administration
                                      Follow-up Review of Controls Over
                                        Religious Compensatory Time




                                         Background

Title 5 United States Code Section 5550a, and its implementing regulations, Title 5 Code of
Federal Regulations Sections 550.1001 and 550.1002 (2010),1 provide that employees of an
executive agency may modify their work schedules to work compensatory time in order to take
time off because of personal religious beliefs that require abstention from work during certain
periods of the workday or workweek. The time off from work is referred to as religious
compensatory time (RCT), and this benefit allows employees to participate in religious
observances without using annual leave or leave without pay. Although the U.S. Office of
Personnel Management has the authority to prescribe regulations related to the use of RCT, each
executive agency head also has the authority to prescribe regulations related to the use of RCT
that provide for such exceptions as may be necessary to efficiently carry out the mission of the
agency or agencies involved. Each agency should have adequate controls in place to ensure that
an employee’s request for RCT is for a religious purpose, and an employee is allowed to
accumulate only the RCT hours required to make up for previous or planned absences from work
for religious observances.
Unlike regular compensatory time, which may be granted in lieu of overtime on an hour-for-hour
basis and must be used by the end of the 26th pay period from which it was earned, RCT does not
expire and must only be earned and used for planned religious observances. A negative balance
occurs when an employee is advanced RCT and takes time off from work for a religious
observance before working the extra hours required to make up for time away from work. A
positive balance occurs when an employee works extra hours to accumulate RCT before taking
time off for a religious observance.
In February 2009, the Treasury Inspector General for Tax Administration (TIGTA) published a
report on the use of RCT within the Internal Revenue Service (IRS).2 In that report, we
determined that 86 IRS employees had accumulated excessive RCT balances as a result of
inadequate controls over the use of RCT.3 While the issue of excessive balances is not
widespread within the IRS, the accumulation of an excessive RCT balance increases the risk that
it may be used for unintended purposes. This includes earning RCT and routinely not using the
leave with the intention of receiving a lump sum payment for the balance upon separation or
retirement; using RCT in place of annual or sick leave; or allowing employees to earn RCT in
lieu of overtime, compensatory time, or credit hours. We made several recommendations to

1
  Federal Employees Flexible and Compressed Work Schedules Act of 1978, Section 401, 95 Pub. L. No. 390,
92 Stat. 762.
2
  TIGTA Report Number 2009-IE-R002, To Prevent the Possible Widespread Abuse of Religious Compensatory
Time, Additional Controls are Needed (Reference Number 2009-IE-R002, dated February 7, 2009).
3
  The IRS defines an excessive RCT balance as 80 or more hours, either positive or negative.
                                                                                                    Page 1
                                 Follow-up Review of Controls Over
                                   Religious Compensatory Time




improve controls over RCT use, and reduce the potential for its widespread abuse. The IRS
Human Capital Officer and the Chief, Agency-Wide Shared Services (AWSS), concurred with
our recommendations and agreed to implement corrective actions to improve controls over the
use of RCT.
TIGTA conducted this follow-up review to determine if proposed corrective actions were
implemented and if they significantly reduced the potential for employees to accumulate
excessive RCT balances. This inspection was performed during the period of August 2010
through January 2011, in the IRS Human Capital Office (responsible for IRS-wide employee pay
and benefits policies); AWSS at the IRS National Headquarters in Washington, D.C.; and in the
AWSS office in Memphis, Tennessee. We also interviewed selected managers in 19 IRS offices
(refer to Appendix IV for a detailed listing).
This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on our
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                                           Follow-up Review of Controls Over
                                             Religious Compensatory Time




                                         Results of Review

Fewer Employees Have Excessive Religious Compensatory Time
Balances but the Risk for Abuse is Still Present
Our previous review of RCT use within the IRS revealed internal control weaknesses that
allowed some employees to accumulate excessive RCT balances (the absolute value4 of the
balance is equal to or greater than 80 hours). Between February 2008 and June 2010, the number
of IRS employees with RCT balances and employees with excessive balances significantly
decreased. However, a detailed analysis of the population of employees with excessive balances
indicates a continuing risk that employees could misuse RCT.
The number of employees with excessive RCT balances declined
As of June 2010, approximately 2 percent of the IRS workforce (1,899 of 107,728 employees)
had RCT balances. The figure below illustrates the portion of IRS employees with RCT
balances.
                             Figure 1: IRS Employees with RCT Balances




                             105,829 (    %)

                                                                                              No RCT Balance
                                                                                              RCT Balance




                                                                                         1,899 (2%)




         Source: TIGTA analysis of time and attendance records, as of June 2010.



4
    The numerical value of a number without regard to its sign (positive or negative.)
                                                                                                       Page 3
                                                             Follow-up Review of Controls Over
                                                               Religious Compensatory Time




Having an RCT balance, in and of itself, does not create a problem. However, we believe
employees with higher RCT balances are more likely to use RCT for non-religious purposes.
Potential misuse includes earning RCT and not routinely using it with the intention of receiving a
lump sum payment for the balance upon separation or retirement; using RCT instead of annual or
sick leave; or allowing employees to earn RCT in lieu of overtime, compensatory time, or credit
hours. Eighty-one percent of IRS employees with RCT (1,546 of 1,899) had balances between
negative 20 and positive 20 hours, while only about three percent (56 of 1,899 employees) had
excessive balances. Thus, we believe that the level of RCT misuse is relatively low within the
IRS. Figure 2 documents the distribution of RCT balances.
                                                 Figure 2: Distribution of RCT Balances
                    900
                                                                                       814
                    800
                                                                            732
                    700
  Number of  Employees




                    600

                    500

                    400

                    300

                    200
                                                                                                 122
                    100                                           59                                         57                   47
                                 9          9          23                                                               27
                         0
                             ‐80 or Less ‐60 to ‐79 ‐40 to ‐59 ‐20 to ‐39 ‐1 to ‐19   1 to 19   20 to 39   40 to 59   60 to 79 80 or More


 Source: TIGTA analysis of time and attendance records, as of June 2010.

Between February 2008 and June 2010, the number of employees with RCT balances decreased
from 2,764 to 1,899, and the number of employees with excessive balances decreased from 86 to
56. When compared to the overall workforce for February 2008 and June 2010, the number of
employees with RCT balances declined by approximately 33 percent, and the number of
employees with excessive RCT balances decreased by nearly 37 percent. Figure 3 illustrates the
decline in employees with RCT balances and excessive RCT balances between the two time
periods.


                                                                                                                                    Page 4
                                     Follow-up Review of Controls Over
                                       Religious Compensatory Time




                  Figure 3: Decrease in Employees with RCT Balances

                                                       February        June         Decrease Relative
                                                         2008          2010        to Total Population

    Total Population                                      104,864      107,728

    Employees with RCT Balances                             2,764        1,899

            Percent of Total Population                    2.64 %       1.76 %           33.1 %

    Employees with Excessive RCT Balances                      86             56

            Percent of Total Population                    0.08 %       0.05 %           36.6 %
  Source: TIGTA analysis of time and attendance records, as of February 2008 and June 2010.

Employees with excessive RCT balances declined but the risk of misuse could be
the same
Although the number of employees with excessive RCT balances decreased from 86 to
56 employees between February 2008 and June 2010, a detailed analysis of how the numbers
decreased reveals that the risk for potential RCT misuse may not have changed. Figure 4
documents how the population of employees with excessive balances changed during the time
period.
  Figure 4: Change in the Number of Employees with Excessive RCT Balances
                    between February 2008 and June 2010

     Employees with excessive balances as of February 2008                                          86
     Less employees who no longer had excessive balances as of June
     2010:
          Employees who reduced RCT balances below 80 hours                                   35

          Employees who separated with RCT balances                                           17   (52)

     Subtotal                                                                                       34

     Add employees who accumulated excessive balances by June 2010:                                 22

     Employees with excessive balances as of June 2010                                              56
   Source: TIGTA analysis of time and attendance records from February 2008 through June 2010.



                                                                                                     Page 5
                                          Follow-up Review of Controls Over
                                            Religious Compensatory Time




Of the 86 employees who had excessive balances as of February 2008, 35 (approximately
41 percent) reduced their RCT balances below 80 hours by June 2010. Two employees either
used their RCT or repaid advanced RCT before separating from the IRS, and 33 employees
reduced their RCT balances below 80 hours. However, about 31 percent of these employees
(11 of 35) still had RCT balances above 50 hours as of June 2010. These employees could easily
accumulate excessive balances if managers do not monitor how these employees earn and use
RCT.
We found that 17 of 86 employees (nearly 20 percent) separated from the IRS with outstanding
RCT balances that ranged from negative 120 hours to positive 243 hours – 16 employees had
positive RCT balances and one employee had an advanced RCT balance. The IRS must pay a
lump sum amount to an employee who separates from the IRS with a positive RCT balance.
This amount is calculated at the rate of basic pay at the time the work was performed. If an
employee separates from the IRS with an advanced RCT balance, the IRS should subtract the
amount owed for that RCT balance from the final payments owed to the separating employee.
However, the IRS can forgive debt up to $15,000 for separating employees. Of the
17 employees who separated, the IRS paid 16 employees an estimated $70,256 for unused
positive RCT balances, and forgave an estimated $3,166 debt owed by one employee who had an
advanced RCT balance. We discuss the overall financial effect of all employees who separate
from the IRS with RCT balances in more detail below.
Additionally, 34 of 86 employees (about 40 percent) with excessive RCT balances as of
February 2008 still had excessive balances in June 2010. During this time period, five
employees increased their RCT balances, 13 employees did not use or pay back any RCT, and
16 employees reduced their RCT balances. However, these balances remained at or above
80 hours.
Finally, 22 employees accumulated at least 80 hours of RCT between February 2008 and
June 2010 and joined the ranks of employees with excessive balances. Two employees had
advanced balances that ranged from negative 120.5 hours to negative 82 hours, and
20 employees had positive balances that ranged from 80 to 154 hours.
Employees in AWSS noted that the IRS is taking steps to reduce the number of employees with
excessive RCT balances. However, the IRS’s ability to do this is hampered by a settlement
agreement related to a grievance filed by the National Treasury Employees Union (NTEU)5 in
2008. According to the agreement, IRS managers do not have the authority to require employees
to use RCT balances by a specific date. In other words, once an employee earns RCT, the
employee can maintain that balance until he or she separates from the IRS. This agreement
magnifies the need for stronger internal controls designed to ensure managers only approve RCT
for planned religious observances.


5
    NTEU is the union that represents IRS bargaining unit employees.
                                                                                       Page 6
                                       Follow-up Review of Controls Over
                                         Religious Compensatory Time




 Potential and Actual Misuse of Religious Compensatory Time Support
 the Case for Additional Controls
 Based on the result of our previous review, we made five recommendations to improve controls
 over the use of RCT and reduce the potential for widespread abuse of RCT. In response to our
 recommendations, the IRS agreed to implement five corrective actions to improve controls over
 RCT. The planned corrective actions and the status of those actions are listed below.
   Figure 5: Status of Corrective Actions Related to Previous Recommendations

                                                                                        Status of Corrective
                            Planned Corrective Action
                                                                                               Action
  1. The IRS will prepare a semiannual listing of employees with RCT balances          Complete
     that are excessive or have not decreased within that six-month review
     period. The listing will be provided to the senior executive of each
     operating division and business unit.
  2. The IRS will revise its policies to emphasize that additional RCT may not         Complete
     be approved if existing RCT balances have not been used, repaid, or
     scheduled for use or repayment.
  3. The IRS will modify the Internal Revenue Manual (IRM) to require that             Complete, but
     advanced RCT balances must be repaid before approving employees’                  corrective actions do
     voluntary requests to earn overtime, compensatory time, or credit hours.          not apply to all IRS
                                                                                       employees.
  4. The IRS will revise the IRM to require employees to submit written                Complete, but
     requests for RCT with the pertinent information. The request should               corrective actions do
     include: the dates and number of hours requested; a brief explanation of the      not apply to all IRS
     personal belief that requires the employee to abstain from work at the time       employees.
     requested; and the dates and times the employee will repay the hours used.
  5. The IRS will revise its policies related to the use of RCT, leave, and hours      Incomplete
     of duty. The IRS will also develop a multi-pronged approach expected to
     include developing web-based guidance and training to ensure managers,
     employees and timekeepers understand the revised policies.
Source: Summary based on reviews of the IRS’s IRM and the National Agreement for 2009, and interviews with IRS
employees.

 The IRS completed correction actions #1 and #2. As planned, the IRS revised the IRM to
 address corrective actions #3 and #4; however, these corrective actions do not apply to IRS
 bargaining-unit employees represented by NTEU (approximately 80 percent of the IRS
 workforce). The IRS has not completed and implemented corrective action #5. As documented
 below, our analysis and interviews with IRS managers reveal several indicators of potential RCT


                                                                                                       Page 7
                                  Follow-up Review of Controls Over
                                    Religious Compensatory Time




misuse, and in some cases, actual misuse. Thus, we believe that the IRS should take additional
actions to improve its internal controls.
Semiannual reports of employees with excessive RCT balances have mixed
success
In response to our prior report, the IRS Human Capital Officer implemented a semiannual
reporting process which identifies those employees with RCT balances that are either excessive
or have not decreased within the six-month period. These semiannual reports are provided to the
senior executives of each operating division and business unit within the IRS to retain oversight
and ensure adequate controls are in place to address excessive RCT balances. We interviewed
managers to confirm whether these communications were being filtered down to their level for
action, as deemed appropriate, and eight managers confirmed that they had received some form
of contact from senior leaders concerning their employees’ RCT balances. These managers
indicated they at least discussed the RCT balances with the employees, and in some cases the
managers and employees developed plans to use or pay back the RCT.
Analysis of IRS time and attendance records and several semiannual reports showed that while
these reports are distributed throughout the respective operating divisions and business units,
they appear to have very little impact on excessive and overdue advanced RCT balances.
However , the overall impact cannot be fairly assessed when one takes into consideration that the
semiannual reporting process is relatively new and, as previously stated, in the case of employees
with excessive positive RCT balances, managers cannot force the employees to use RCT once
earned. We believe that as this reporting process matures, the end result will be a decline in
overall excessive balances and a reduced potential for abuse and mismanagement of RCT.
Some employees continue to separate from the IRS with large RCT balances
As stated above, the IRS must pay an employee who separates from the IRS with a positive RCT
balance at the rate of basic pay at the time the work was performed. AWSS employees can use
electronic payroll records to readily determine the rate of basic pay as long the RCT was earned
within the most recent six-year period. However, if the RCT was earned over six years ago,
AWSS employees must use a labor-intensive and time-consuming process to determine the rate
of basic pay. In cases where an employee separates from the IRS with RCT earned over
six years ago, AWSS employees believe this process is not always cost effective. Instead,
AWSS employees would more than likely calculate the amounts owed to the employee based on
the oldest rate of basic pay in the system, which could cause the IRS to overpay the employee.
Between January 2008 and October 2010, the IRS owed approximately $204,426 to
165 employees who separated with positive RCT balances. The figure below documents
amounts paid to employees who separated with outstanding positive RCT balances between
January 2008 and October 2010.




                                                                                           Page 8
                                        Follow-up Review of Controls Over
                                          Religious Compensatory Time




          Figure 6: Amounts Paid to Employees who Separated from the IRS
                            with Positive RCT Balances
                          80 or
Balances (Hours)                        60 to 79       40 to 59        20 to 39        1 to 19          Totals
                          More
Total Employees                13               8             17              20            107               165
Total Hours              1,316.50          546.00         797.00          601.50         533.00          3,794.00
Avg. Hours                 101.27           68.25          46.88           30.08           4.98             22.99
Est. Gross Amount      $73,801.58      $27,894.29     $44,725.58      $32,146.54     $25,857.87       $204,425.86
Est. Avg. Payout        $5,677.04       $3,486.79      $2,630.92       $1,607.33       $241.66          $1,238.94
Source: TIGTA analysis of IRS payroll records, as of October 2010.

As previously stated, if an employee separates from the IRS with an advanced RCT balance, the
IRS should subtract the amount owed for the advanced RCT balance from the final payments
owed to the separating employee. Between January 2008 and October 2010, 119 employees
owed the IRS approximately $42,731, because they separated from the IRS with advanced RCT
balances. The figure below documents amounts owed by employees who separated with
advanced RCT balances between January 2008 and October 2010.
     Figure 7: Amounts Owed by Employees who Separated from the IRS with
                     Advanced or Negative RCT Balances6
                          -80 or
Balances (Hours)                       -79 to -60      -59 to -40     -39 to -20      -19 to -1         Totals
                           Less
Employees                        1               0              5             13            100               119
Total Hours               (120.00)            0.00       (227.25)       (343.25)       (665.75)         (1356.25)
Avg. Hours                (120.00)            0.00        (45.45)        (26.40)          (6.66)           (11.40)
Est. Gross Owed          $3,166.34           $0.00      $7,368.58     $10,416.82     $21,779.37        $42,731.11
Est. Avg. Debt           $3,166.34           $0.00      $1,473.72       $801.29        $217.79            $359.08
Source: TIGTA analysis of IRS payroll records, as of October 2010.

Compared to the IRS’s total annual budget of $12.58 billion, the amounts paid to or owed by
employees are minimal. However, additional management oversight, as discussed below, could
reduce the potential for more abuse in this area.




6
  Preliminary data received from the IRS indicate the IRS forgave the debts of 16 former IRS employees with an
aggregate of 329.25 hours of RCT. The forgiven debt, estimated at $9,530.84, is included in the $42,731.11 debt
identified above.
                                                                                                          Page 9
                                     Follow-up Review of Controls Over
                                       Religious Compensatory Time




Some employees were paid for overtime, compensatory or credit hours although
they had advanced or negative RCT balances
During our previous review, we noted that managers allowed several employees to receive paid
overtime, regular compensatory time, and credit hours while still owing significant RCT
balances. Employees generally receive 1.5 times their basic hourly pay rate for each overtime
hour worked, while they may earn regular compensatory time in lieu of paid overtime on an
hour-for-hour basis. Credit hours allow employees under flexible work schedules to be absent
for an equal number of hours worked. Had the extra hours worked been applied to advanced
RCT balances, these employees could have paid off or significantly reduced their balances.
Based on a previous TIGTA recommendation, the IRS revised its IRM to specify that advanced
RCT balances should be repaid before approving employees’ voluntary requests to earn
overtime, compensatory time, or credit hours. However, the IRS and NTEU did not agree on this
requirement and it was not included in the Internal Revenue Service and National Treasury
Employees Union 2009 National Agreement II (hereafter referred to as the 2009 National
Agreement).7 As a result, this requirement does not apply to bargaining unit employees.
The IRS identified 40 employees who either had advanced RCT balances outstanding for at least
120 days, or had advanced RCT balances of 80 hours or more. Analysis of the employees’ time
and attendance records from January 2008 to July 2010 revealed that 35 of 40 employees (nearly
88 percent) earned overtime, compensatory time, or credit hours despite having advanced RCT
balances. Had IRS managers applied the overtime, compensatory time or credit hours to the
advanced RCT balances, 21 of 35 employees could have reduced their RCT balances to zero;
nine employees could have reduced their RCT balances by 50 to 96 percent; and the remaining
five employees could have reduced their RCT balances by four to 45 percent. Examples of the
more egregious cases are listed below.
    •   *****Code Number 3d


    •   *****Code Number 3d*****
    •   *****Code Number 3d*****
    •   *****Code Number 3d*****
Recommendation
Recommendation 1: The IRS Human Capital Officer should modify the IRS RCT
procedures to require that all employees (bargaining unit and non-bargaining unit) repay


7
 The IRS and NTEU Agreement was implemented in October 2009. Section 6.550.1 Pay Administration of the
IRM was updated on December 16, 2009.
                                                                                                 Page 10
                                       Follow-up Review of Controls Over
                                         Religious Compensatory Time




advanced RCT before a manager can approve employees’ voluntary requests to earn overtime,
compensatory time, or credit hours.
        Management’s Response: IRS management agreed with this recommendation;
        however, implementing this requirement for bargaining unit employees would require
        renegotiating the provisions of the 2009 National Agreement related to use of RCT.
        Management believes proposing changes related to the use of RCT is not one of the
        major provisions that should be renegotiated during reopener negotiations.8 Therefore,
        the IRS agreed to assess the status of RCT issues and consider proposing changes related
        to RCT in the next agreement.9 IRS plans to implement this recommendation by
        October 1, 2014.
        Office of Inspections and Evaluations Comment: We agree with the IRS’s
        proposed corrective actions. However, as illustrated in this report, current methods of
        enforcing timely repayment of advanced RCT are largely at the discretion of front-line
        supervisors and managers. Until provisions of the 2009 National Agreement related to
        RCT are changed, there is nothing to prevent bargaining unit employees (approximately
        80 percent of the IRS workforce) with advance RCT from earning overtime,
        compensatory time, or credit hours.
Requests to earn or use RCT were not documented
According to guidance issued by the Office of Personnel Management, agencies should require
employees to submit written requests for RCT in advance. In our previous report, we
recommended the IRS modify its RCT procedures to require that all requests for RCT be
submitted in writing before any RCT is earned or advanced. We also recommended that these
requests contain pertinent information, such as, dates and hours requested, specific information
on the religious observance that requires the employee abstain from work, and the dates and
times the employee would either work to pay back or earn the time requested. The IRS revised
its IRM to comply with our recommendation, but the revised policy does not apply to bargaining
unit employees.
We interviewed 41 IRS managers who supervised employees with excessive RCT balances to
determine whether they had a process in place to document and manage requests to earn and use
RCT.10 In our opinion, only 16 of 41 managers (39 percent) had an acceptable process to
document and track the use of RCT. These managers used hard copy or electronic calendars to


8
  During reopener negotiations in October 2011, the IRS and NTEU can submit proposals to introduce two new
articles and amend five existing articles.
9
  During negotiations related to the new agreement, which should start in October 2013, the IRS and NTEU can
propose changes to any article in the present agreement.
10
   For the purpose of this review, we defined a manager’s process as any means of physically documenting the
request for, planning of, and/or tracking of RCT to be earned or borrowed, regardless of the quality of the
documentation.
                                                                                                       Page 11
                                      Follow-up Review of Controls Over
                                        Religious Compensatory Time




track time earned or worked, and the Request for Leave or Approved Absence forms (Office of
Personnel Management Form 71), or the obsolete IRS form Request for Compensatory Time for
Religious Observances (Form MAR-1903 (8-79)).
Another eight managers had a process in place to document RCT requests; however, the process
did not provide sufficient documentation to determine the purpose of the RCT, and the dates the
employee planned to earn or use the RCT. These processes primarily consisted of verbal
conversations followed up by routing slips (Form 1725) to formally request RCT, email
messages from the employee to the manager, or follow-up documentation after the employee
chose to work or take the RCT without the manager’s preapproval.
Office of Personnel Management guidance provides that, “An employees [sic] request for [RCT]
time off should not be granted without simultaneously scheduling the hours during which the
employee will work to make up the time.”11 Of the 41 managers interviewed, 29 managed
employees with either excessive advanced balances or advanced balances outstanding for over
six months.
     •   Twelve managers (41 percent) confirmed that they did not have plans in place for the
         employee to pay back the RCT advanced.
     •   Twenty-two managers (76 percent) stated the employees accumulated advanced RCT
         balances while working for another IRS manager or office. Twelve of these managers
         affirmed that the historical documentation of the employee’s requests, accrual, or use of
         RCT was unavailable.
Recommendation
Recommendation 2: The IRS Human Capital Officer should modify the IRS RCT
procedures to require that all employees (bargaining unit and non-bargaining unit) submit written
requests to earn or use RCT, and develop a standard form for requesting, authorizing, and
documenting the use of RCT.
         Management’s Response: IRS management agreed with this recommendation;
         however, implementing it as a requirement for bargaining unit employees would require
         renegotiating the provisions of the 2009 National Agreement related to use of RCT.
         Management believes proposing changes related to the use of RCT is not one of the
         major provisions that should be renegotiated during reopener negotiations. Therefore, the
         IRS agreed to assess the status of RCT issues and consider proposing changes related to
         RCT in the next agreement. The IRS plans to implement this recommendation by
         October 1, 2014.


11
  Office of Personnel Management, Adjustment of Work Schedules for Religious Observances,
http://www.opm.gov/oca/worksch/html/reli.htm (last visited June 10, 2011).
                                                                                            Page 12
                                           Follow-up Review of Controls Over
                                             Religious Compensatory Time




           Office of Inspections and Evaluations Comment: We agree with the IRS’s
           proposed corrective actions. However, until provisions of the 2009 National Agreement
           related to RCT are changed, the risk of abuse and mismanagement of RCT may continue.
Some managers misused RCT to compensate employees for extra hours worked
The Office of Personnel Management guidelines, the IRM, and the 2009 National Agreement all
provide that employees should only be allowed to accumulate the number of RCT hours needed
for anticipated absences required for religious observances. The IRM provides that, “RCT can
only be accrued and taken for its proper purpose... it cannot be accumulated in excess of what is
required for use nor can it be used to supplement annual leave or circumvent the payment of
overtime.”12
We interviewed 13 managers because they each had at least one employee with RCT balances
that either exceeded 80 hours, or increased significantly even though the employee already had a
large balance. Seven of 13 managers stated they allowed employees to earn RCT in order to
compensate employees for working extra hours to complete assigned tasks. According to these
managers, they did not have the authority to approve overtime or regular compensatory time for
the extra hours worked, but they did have the authority to approve RCT. While the managers
acknowledged they allowed employees to earn RCT to meet workload demands instead of
anticipated religious observances, these managers declared the employees only used the RCT for
religious purposes. The managers also noted that it was difficult to draft plans documenting how
the employee would earn and use RCT. Thus, the managers would allow the employees to work
the extra hours because “the work was available,” and then allow employees to take the time off
for religious observances as needed.
Conversely, two managers of several employees admitted they intentionally allowed their
employees to earn RCT in lieu of overtime or regular compensatory time worked, and also
allowed employees to take the time off for purposes other than religious observances. These
managers stated they were well aware of the policies and guidelines for RCT, however, chose to
circumvent those regulations to meet workload demands. Their abuse of the RCT benefit is so
blatant that analysis of time and attendance records revealed that between January 2008 and
December 2010, four employees earned an average of 192 hours of RCT per calendar year. The
hours of RCT earned and used by these employees in that period are documented below:
       •   *****Code Number 3d*****


       •   *****Code Number 3d*****




12
     IRM 6.550.1.7.1(December 10, 2009).
                                                                                         Page 13
                                      Follow-up Review of Controls Over
                                        Religious Compensatory Time




      •   *****Code Number 3d*****


      •   *****Code Number 3d*****

Managers need more training related to the use of RCT
Per the U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government, “All personnel need to possess and maintain a level of competence that allows
them to accomplish their assigned duties…. Management needs to identify appropriate
knowledge and skills needed for various jobs and provide needed training.”13 Of the
41 managers interviewed, 34 managers (83 percent) stated they (1) never received any training
related to the appropriate use and management of RCT, or (2) could not recall any training on the
subject of RCT. Only 16 managers (39 percent) stated they were familiar with recent RCT
updates to the IRM and/or the 2009 National Agreement.
Accompanying this lack of training and familiarity with current RCT guidelines are a correlation
of identified risks. For example, six of the 41 managers (15 percent) interviewed declared their
employees’ RCT balances were the result of timekeeping errors. They alleged that the
employees either (1) never requested to borrow or earn RCT, or (2) while the employee was
working additional hours to pay back RCT borrowed, the timekeeper mistakenly entered the
wrong time code into the IRS timekeeping system - the Single Entry Time Reports System.
Another risk associated with the lack of training is the potential for abuse of RCT by IRS
employees. Of the 41 managers interviewed, 23 (56 percent) confirmed that they had never
denied a request for RCT. Managers repeatedly told us they approved questionable requests
because (1) they did not fully understand what events were legitimate religious observances, or
(2) they feared potential grievances from mishandling or denying a request for RCT. Most of the
managers commented they would approve a request for RCT regardless of whether the event
appeared to be a religious observance that would require the employee abstain from work in
order to avoid potential grievances and the appearance of any prejudice against an employee’s
faith.
In our previous report, we recommended that all IRS managers and employees receive training
on the IRS time and attendance policies related to all types of leave to increase awareness of
possible abuse and ensure proper administration of not only RCT, but all other types of leave and
hours of duty. The IRS completed a training module specifically related to RCT that provides
detailed guidance on how RCT is to be earned and used. The IRS plans to release the RCT
training module in conjunction with eight other training modules related to administrative
policies in 2011. However, the training will only be mandatory for new front-line managers; it


13
     GAO/AIMD-00-21.3.1 (11/99), 8.
                                                                                         Page 14
                                       Follow-up Review of Controls Over
                                         Religious Compensatory Time




will not be mandatory for all managers and employees. Staff in the Human Capital Office noted
that other training related to RCT is available to all IRS employees, although it is not mandatory.
Given the control weaknesses we identified and confusion related to reviewing and approving
RCT, the IRS should reconsider whether the training should be mandatory for all managers and
timekeepers. At a minimum, the confusion about the controls over RCT and managers’
responsibilities related to RCT should be addressed.
Recommendation
Recommendation 3: The IRS Human Capital Officer should require that all managers and
timekeepers receive mandatory training on the revised procedures and responsibilities associated
with RCT.
        Management’s Response: IRS management partially agreed with this
        recommendation. Management plans to consider inserting a training module related to
        RCT in the annual management briefings cycle; however, they believe mandatory
        training for timekeepers would not be cost-effective.14 The IRS has developed online
        training related to RCT and plans to use web communications, such as Leaders’ Alerts
        and Single Entry Time Reports System newsletters, to encourage timekeepers and
        managers to complete RCT training. The IRS plans to implement this recommendation
        by October 15, 2012.
        Office of Inspections and Evaluations Comment: We agree with the IRS’s
        proposed corrective action specifically related to managers. In terms of training for
        timekeepers, the use of web communications to encourage timekeepers to complete
        online training is an acceptable alternative to mandatory training.




14
  The term “annual management briefing cycle” was not included in the IRS’s written response to TIGTA’s draft
report. IRS management communicated this information to TIGTA in a separate discussion.
                                                                                                       Page 15
                                 Follow-up Review of Controls Over
                                   Religious Compensatory Time




                                                                                Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the corrective actions implemented by the IRS
significantly reduced the potential for IRS employees to accumulate excessive RCT balances.
To accomplish our objective, we:
I.     Determined whether the IRS has significantly reduced the number of employees with
       excessive RCT balances.
       A. Determined how many employees had an RCT balance of 80 or more hours, either
          negative (advanced) or positive.
       B. Determined the financial impact of employees separated from the IRS with a positive
          or negative (advanced) balance between January 2008 and October 2010.
II.    Determined when, or whether, the IRS implemented corrective actions related to previous
       recommendations based on interviews with employees in the Human Capital Office and
       AWSS.
III.   Determined whether the employees’ managers followed established procedures related to
       RCT for the employees with the highest RCT balances.




                                                                                       Page 16
                               Follow-up Review of Controls Over
                                 Religious Compensatory Time




                                                                   Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James A. Douglas, Supervisory Evaluator
John L. da Cruz, Program Analyst
Kyle M. Huggins, Student Trainee




                                                                        Page 17
                               Follow-up Review of Controls Over
                                 Religious Compensatory Time




                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
IRS Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Director, Workforce Progression and Management OS:HC:WPM
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       IRS Human Capital Officer OS:HC




                                                                         Page 18
                                Follow-up Review of Controls Over
                                  Religious Compensatory Time




                                                                            Appendix IV

  Locations of Interviews of Selected IRS Managers

We interviewed 41 IRS managers who had employees with excessive RCT balances to determine
whether managers understood and followed established policies and procedures. The list below
identifies the locations of the managers interviewed.
Atlanta, Georgia
Baltimore, Maryland
Bronx, New York
Brooklyn, New York
Chamblee, Georgia
Dallas, Texas
Detroit, Michigan
Downers Grove, Illinois
El Monte, California
Garden City, New York
Holtsville, New York
Jacksonville, Florida
New York, New York
Newark, New Jersey
Philadelphia, Pennsylvania
Schiller Park, Illinois
St. Paul, Minnesota
Tampa, Florida
Washington, D.C.




                                                                                    Page 19
             Follow-up Review of Controls Over
               Religious Compensatory Time




                                                 Appendix V

Management’s Response to the Draft Report




                                                      Page 20
Follow-up Review of Controls Over
  Religious Compensatory Time




                                    Page 21
Follow-up Review of Controls Over
  Religious Compensatory Time




                                    Page 22
Follow-up Review of Controls Over
  Religious Compensatory Time




                                    Page 23
Follow-up Review of Controls Over
  Religious Compensatory Time




                                    Page 24
